     Department of Homeland Security

     ��������������������������


       The Performance of 287(g) Agreements 

                  FY 2013 Update 





OIG-13-116                           September 2013

                          OFFICE OF INSPECTOR GF.NERAL
                              Department of Homeland Security
                               Washington, DC 20528! www.oig.dhs.gov

                                     September 5, 2013

MEMORANDUM FOR:               Timothy Moynihan
                              Assistant Director
                              Office of Professional Responsibility
                              Immigration and Customs Enforcement

                              Thomas Homan
                              Executive Associate Director
                              Enforcement and Removal Operations
                              Immigration and Customs Enforcement

                              Radha Sekar
                              Acting Executive Director
                              Management and Administration
                              Immigration and Customs Enforcement

FROM:                         Deborah l. Outten-Mills       ~~cf<. (tl~_,., - ~
                              Acting Assistant Inspector Gen·eral for Inspections

SUBJECT:                     The Performance of 287{g) Agreements FY 2013 Update
                             OIG Project No. 13-064-ISP-ICE

Attached for your information is our final letter report, The Performance of 287{g}
Agreements FY 2013 Update. We incorporated the formal comments from Immigration
and Customs Enforcement in the final report.

The report contains no recommendations.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

The major contributor to this report is Dagmar Firth, Senior Inspector.

Please call me with any questions, or your staff may contact Tatyana Martell,
Senior Inspector, at 202-254-4220.

Attachment
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   Background
   In September 1996, Congress authorized the executive branch to delegate immigration
   enforcement authorities to State and local government agencies. The Illegal Immigration
   Reform and Immigrant Responsibility Act of 19961 amended the Immigration and
   Nationality Act by adding section 287(g).2 Under this section, the Department of
   Homeland Security’s Immigration and Customs Enforcement (ICE) is authorized to enter
   into memorandums of agreement (MOAs) that describe the terms and conditions for
   participating law enforcement agency (LEA) personnel to function as immigration
   officers. MOAs also designate the 287(g) program model for each participating agency.
   As of July 2013, ICE had 39 MOAs in 19 States, a reduction from the 64 MOAs in 24
   States during fiscal year 2012. As of January 2013, all Task Force Officer Models have
   been discontinued.

   ICE Enforcement and Removal Operations (ERO) maintains day-to-day supervision of the
   287(g) program. Within the ICE Office of Professional Responsibility (OPR), the 287(g)
   Inspections Unit assesses the effectiveness of ICE field offices in supervising and
   supporting 287(g) programs, as well as ICE and LEA compliance with program policies
   and MOA requirements. The results of 287(g) inspection reviews provide ICE
   management with information on the administration of the program by local ICE offices
   and LEAs.

   Results of Review
   Our report provides updated information on the status of ICE efforts to address
   recommendations in our prior reports, The Performance of 287(g) Agreements, The
   Performance of 287(g) Agreements Report Update, The Performance of 287(g)
   Agreements FY 2011 Update, and The Performance of 287(g) Agreements FY 2012
   Follow-Up.

   Since our initial 287(g) report in March 2010, ICE has made significant progress in
   implementing our recommendations. To close a recommendation, we must agree with
   the actions ICE has taken to resolve our concerns. All 64 recommendations included in
   our prior reports have been closed based on corrective action plans and supporting
   documentation provided by ICE.




   1
       Public Law (P.L.) 104-208, Sec. 133, September 30, 1996.
   2
       Codified at 8 U.S.C. § 1357(g).


www.oig.dhs.gov                                          2                          OIG-13-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   ICE Has Complied with All Office of Inspector General Recommendations

   Our March 2010 report, The Performance of 287(g) Agreements, included 33
   recommendations for ICE to strengthen management controls and improve its program
   oversight. Based on our review of the corrective action plan and supporting
   documentation provided by ICE, we have closed all recommendations in this report.

   The Performance of 287(g) Agreements Report Update, dated September 2010, included
   16 recommendations related to (1) management controls and accountability over 287(g)
   program funding and (2) achieving goals for removing criminal aliens who pose a threat
   to public safety. Based on our analysis of documentation provided by ICE, we have
   closed all recommendations in this report.

   The Performance of 287(g) Agreements FY 2011 Update, dated September 2011,
   included 13 recommendations for ICE to provide training for inspectors, implement
   comprehensive analytical tools for the inspections review process, and revise MOAs
   with LEAs to ensure an understanding of 287(g) program requirements. Based on our
   analysis of the documentation provided by ICE, we have closed all recommendations in
   this report.

   The Performance of 287(g) Agreements FY 2012 Follow-Up, dated September 2012,
   included one recommendation for the ICE Office of Management and Administration to
   provide the final classification study to OPR and one recommendation for ICE OPR to
   provide a transition plan for the implementation of the classification plan. Based on our
   analysis of the documentation, we have closed both recommendations.

   ICE has planned or implemented the following corrective actions to close the
   recommendations:

           Developing an assessment of the previous MOA;

           Developing a new MOA; and 

           Developing a transition plan for phasing out the 1811 job series in the OPR

           287(g) Inspections Unit. 


   Conclusion
   This review focused on the status of recommendations from our prior 287(g) reviews
   and efforts by the OPR 287(g) Inspections Unit to assess compliance with MOAs. ICE has
   provided and implemented corrective action plans that satisfy all 64 recommendations
   from our prior four reports.


www.oig.dhs.gov                                3                                          OIG-13-116
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This review is congressionally mandated by the Consolidated and Further Continuing
   Appropriations Act, 2013 (P.L. 113-6), requiring that DHS OIG review the delegation of
   law enforcement authority agreements that ICE enters into pursuant to section 287(g)
   of the Immigration and Nationality Act (8 U.S.C. § 1357(g)). Our objectives were to
   assess ICE’s progress in addressing the recommendations in our reports, The
   Performance of 287(g) Agreements, OIG-10-63; The Performance of 287(g) Agreements
   Report Update, OIG-10-124; The Performance of 287(g) Agreements FY 2011 Update,
   OIG-11-119; and The Performance of 287(g) Agreements FY 2012 Follow-Up, OIG-12­
   130.

   We conducted fieldwork during June 2013 and met with OPR and ERO officials. We also
   reviewed ICE’s actions to address recommendations from our prior reviews of 287(g)
   operations.

   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                               4                                      OIG-13-116
                     m      I
                                !!
                                  .
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report


                                                                                             Office ofrhc D l rf'r tnr

                                                                                             U.S.   D~.: parl mc n l   ur l lo mclnntl Sccu ril )'
                                                                                             ~00 12 tJo S1 rcct . S\V
                                                                                             \\ aslungton, IJC 20536


                                                                                             U.S. Immigrati o n
                                                                                             and Cu stom s
                                                                                             Enforcem .ent

                                                              A ug ust 19. 2013

              MI::MUH.At' IDUM !'OR :            Deborah L Outt.::n- M ills
                                                 Acting /\ssistnn t fnspcc1o r Gen eral tOr lnspcciio ns
                                                 Onice of Inspector Gc o wr,o ~

              !'ROM:                             Radlm C. Sekur                 1':J '----
                                                 Ac ting l! xcc u t iv~ Associa!c Q'trcctor
                                                 Management and Admini st ration

              SUHJ L::LT:                        Manage m e nt Response to O IG Draft ... The Performance o f 287(g)
                                                 Agreemen ts- FY 20 13 Update''. dated J uly I 9. 20 13

              U.S. Im m ig ration a nd C ustoms Enforcement (ICr':) aprrc.:iat cs the opportun ity to comm en t on
              the s ubj ect draft repo rt. \~' e have reviewed and concur with the resu lt s of the report . which
              indicates that:

                      (_)JU considers the remaining four open rccotntncndat ions frnn1 the tw·o pr ior reports
                      resolved and c losed : and.
                      ICE has provictcd ::tnd inlpl c nlcn tcd co •-rcc ti vc ac.:tion plans thnl satis t)' a ll 64
                      recon1n1cndations f rrnn rhe O IC.i' s pr ior t'tn1r rcpon s.

              ICF. \\nu ld l ike tu thank the U IU lor its exceptional pro fessionali sm dur ing th is review and
              cspeciall) '""'Is to acknowk<.lgc the e ff o rts ofO IG Sen ior Inspector Dag mar Firth oncl O IG
              I nspecto r T atyuna ~l ane! I fo r· the ir construct ive assistance in \Vork ing \Vith us lo 1·csol ve the
              ren1uining open n:conltncnd ations.

              S ho uld you have q uestions. please con tact \l!ichael Moy. Audit l'nrtfi.>li o Manager. at ( 20 2) 732-
              6263. or by e-m ai l a t !VIic haci.Moy@ dhs.go'.




                                                                                                                        1\ \\ n , ic~. ~O '




www.oig.dhs.gov                                                        5                                                                             OIG-13-116
                            OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Status of Recommendations from Prior OIG Reports
   Status of Recommendations from OIG Report OIG-10-63, The Performance of 287(g)
   Agreements, dated March 2010

   Summary:

   33 Total Recommendations

   33 Closed
    0 Resolved and Open
    0 Unresolved and Open


   Status of Recommendations from OIG Report OIG-10-124, The Performance of 287(g)
   Agreements Report Update, dated September 2010

   Summary:

   16 Total Recommendations

   16 Closed
    0 Resolved and Open
    0 Unresolved and Open


   Status of Recommendations from OIG Report OIG-11-119, The Performance of 287(g)
   Agreements FY 2011 Update, dated September 2011

   Summary:

   13 Total Recommendations

   13 Closed
    0 Resolved and Open
    0 Unresolved and Open




www.oig.dhs.gov                           6                                   OIG-13-116
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   OIG Report OIG-11-119, The Performance of 287(g) Agreements FY 2011 Update,
   dated September 2011

   Recommendation #8: Assess the current MOA to identify language that does not
   (1) clearly specify program requirements or (2) provide a measurable standard for
   assessing compliance.

   ICE Response: ICE concurs with Recommendation #8. Please reference our response to
   Recommendation #9.

   OIG Analysis: This recommendation is resolved and open pending our receipt and
   review of the assessment results.

   ICE Response Update: 287(g) Inspections Unit is reviewing the MOA language and
   preparing a description of the compliance assessment plan.

   OIG Analysis Update: This recommendation is resolved and open pending our receipt
   and review of the assessment results.

   ICE Response Update June 25, 2013: ICE provided an executive summary describing the
   language changes for the new template and the considerations that went into making
   these changes. ICE requests this recommendation be considered closed.

   OIG Analysis Update: Based on our review of the documentation we consider this
   recommendation resolved and closed.


   Recommendation #9: Develop MOA language that clearly specifies program
   requirements, provides a measurable standard for assessing compliance, and eliminates
   the need to interpret program requirements.

   ICE Response: ICE concurs with Recommendation #9. ICE will review the MOA language
   and assess whether program requirements can be described more clearly and
   compliance measures can be defined. Once the assessment has been completed, ICE
   will provide the results and any subsequent language modifications to OIG.

   OIG Analysis: This recommendation is resolved and open, pending our receipt and
   review of the assessment results.

   ICE Response Update: MOA language modification suggestions will be forwarded to
   Office of Principal Legal Advisor based on the assessment in recommendation #8.


www.oig.dhs.gov                               7                                        OIG-13-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   OIG Analysis Update: This recommendation is resolved and open pending our receipt
   and review of the new language modifications for the MOA.

   ICE Response Update June 25, 2013: Attached you will find the 287(g) MOA final
   template. This template is currently under review by participating LEAs for signature.

   OIG Analysis Update: Based on our review of the MOA template, we consider this
   recommendation resolved and closed.


   Status of Recommendations from OIG Report OIG-12-130, The Performance of 287(g)
   Agreements FY 2012 Follow-Up, dated September 2012

   Summary:

   2 Total Recommendations

   2 Closed
   0 Resolved and Open
   0 Unresolved and Open

   Recommendation #1: Provide the Office of Professional Responsibility with the
   classification study results by December 31, 2012.

   ICE Response: ICE concurs with Recommendation #1. The ICE Office of Human Capital
   has been working with OPR management to gather information to develop solid position
   descriptions that accurately reflect the inspection work performed in OPR. The position
   descriptions have not been finalized at this time, but we see no reason why the results
   cannot be provided to OPR by December 31, 2012.

   OIG Analysis: Pending notification that the classification study results have been
   provided to OPR, this recommendation remains unresolved and open.

   ICE Response Update: The ICE Office of Human Capital (OHC) review was completed.
   The review supports the continued use of the temporary promotion for the OPR
   nonsupervisory GS-1811-14 workforce. However, as part of the analysis OHC reviewed
   the OPR Division workforce and determined the GS-0300 and GS-1801 non-law­
   enforcement job series are better aligned with the Division’s core functions and mission
   than the GS-1811 job series. ICE requests this recommendation be considered closed.




www.oig.dhs.gov                                8                                        OIG-13-116
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   OIG Analysis Update: Based on our review of the documentation, we consider this
   recommendation resolved and closed.


   Recommendation #2: If needed, develop a transition plan to complete any
   reclassification efforts during FY 2013.

   ICE Response: ICE concurs with Recommendation #2. If the final results indicate that
   law enforcement officers’ coverage is warranted, then the completion and final results
   may be impacted by the required DHS review, as necessary.

   OIG Analysis: Pending receipt of a transition plan to complete reclassification efforts,
   this recommendation remains unresolved and open.

   ICE Response Update: As a result of the analysis conducted by the Office of Human
   Capital, it was determined that GS-1811 Criminal Investigators were not an appropriate
   job series for assignment within the OPR Inspections Division, to include the 287(g)
   Inspections Unit. As a result, OPR has created a new position description for the GS­
   1801 General Investigator series in order to assume the role currently performed by GS­
   1811s. Two separate vacancy announcements have recently closed and OPR will begin
   to review the candidates and make potential selections upon receipt of the
   certifications of eligible lists from OHC. As the new positions are brought onboard and
   trained, OPR will continue to transition GS-1811s to the OPR Investigations Division, as
   well as facilitate rotations to Homeland Security Investigations. This redistribution of
   resources will create a new, competitive, experienced organization better suited for the
   unique challenges and ever-changing environment within OPR. With the completion of
   this effort OPR will be repositioned for a long-term success. ICE requests this
   recommendation be considered closed.

   As of June 25, 2013, ICE OPR provided additional information.

   OIG Analysis Update: Based on our review of the information provided as part of the
   OPR transition of its 1811 series inspectors, we consider this recommendation resolved
   and closed.




www.oig.dhs.gov                                 9                                       OIG-13-116
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Director, ICE
   DHS Component Liaison (2)
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  10                        OIG-13-116
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
